No. 20-222

INTHE
Supreme Court of the United States

GOLDMAN SACHS GROUP, INC., ET AL.,

Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. 1(h), I certify that the “Brief of the
National Association of Shareholder & Consumer Attorneys as Amicus Curiae In
Support of Respondents” contains 7,995 words, excluding the parts of the Brief that
are exempted by Supreme Court Rule 33. 1(d).

I declare under penalty of perjury that the foregoing is true and correct.

sr Le
a =
ae

Ernest A. Young
